CSS

NUMBERS-

MSB

IN THE SUPREME COURT OP THE UNITED STATES
PROMILA RAJPUT,

Petitioner

Versus
1. TIFFANY TERRELL,
i. 9+ million Virginia residents & businesses
ii. In re: Promila Rajput
iii. In re: Promila Rajput
iv. UMFS
v. Etal

/-

\ f

V Vi L: ■JL'U

2. SHARON WAKE,
3. RONALD IRVING FOGG,
Respondents

On COMBINED petition for Writ of Certiorari

FILED
FEB 1 6 2021

To Transfer or To Quash or To Remand All Rulings

OFFICE OF THE CLERK
SUPREME COURT, U.S.

To : (1) Supreme Court of Virginia for 4th Cir cuit; that included (2) its Judicial Districts

COMBINED PETITION FOR WRIT OF CERTIORARI

£uXjz '"/3- ' 4- OfSC

.A,
i

Respectfully submitted on 16 February, 2021 by
Promila Rajput
Self-represented Petitioner
Cell: 804 968 9026
Add: 3404 S Street, Richmond, VA 23223
Email: Dromila.ramut.1 Wsmail.com

QUESTIONS PRESENTED FOR REVIEW
Rule 14.1(a)
If the system does not provide adequate measures to address culpability, the
injunctive rulings as to why; how: 'when entered’ manifest improper purpose to tamper
with me presenting as witness to legal system to diminish by trickery my secured rights
and privileges guarded by this court, in an act of retaliation meant to conceal misconduct
of court and related officers ONLY by taking shield of 9+ million population to make
them act against their own welfare [like my son by CNN, Arlington DHS, KIF, & UMFS,
by Tort of Conversion - an act of fraud by misusing to make legal statements on helialf of
9+ million population involving minors without justification, consent, publication or
notice affecting their secured rights, privileges, then the actions not to provide adequate
measures constitute egregious abuse of discretion and office.
Arlington’s GDC judge Karen Hanenberg’s illegal 2/6/12 injunctive order moots
itself nunc pro tunc in AppendixF pg s37-43 for (a) conflict because she initially presided
over my divorce matters in Fairfax from 1997-2003, (b) in 2012 Arlington exceeding,
lacking and unconstitutional jurisdiction that was of the Supreme Court’s designate judge
only because opposing parties were public officers, and (c) any standing of Arlington
assistant county attorney and AG’s civil litigation attorneys as petitioners. This action
was mirrored in Jan & Mar 2019 by hon judge Ms. McCleanev in Fogg’s case from
Richmond district court, bv hon judge Mr. Jenkins in 8&9& 12/19 from Richmond circuit;
hon judge Mr. Hewitt in ‘15 Fredericksburg and hon judge Mr. Chuckers in ‘10 in Henrico.

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page

L oit^Wges

QUESTION # 1 - This petition questions judge Hanenberg’s mental condition and why not
be removed and barred from any government job of trust in any capacity whatsoever, to
include from subbing DC courts or facilitating Virginia Supreme Court by masking her
corrupt mind functioning, and apparent danger and threat to the public as a whole.
Under investigation by a special prosecutor, after CA Todder concluded “significant”
conflict, serving DC <fc Virginia Supreme Court, on 2/6/12 judge Hanenberg extorted
money for filing fees from me and never conducted a trial on the matters that were paid.
Fraudulently entered injunctive order on 2/6/12 as bribe to people in her own field of
profession without having jiuisdiction because of conflict with the defendants equally
corrupt actors - Esther Wiggins, Jason McCandless, et al, authority of designate judge
only from Supreme Court, that judge Hanenberg usurped by deceit, deception and
exploitation of your petitioner without representation assaulting me from bench : “Don't
say anything” In totality renders 2/6/12 order fraud nunc pro tunc for this court to
unequivocally quash or command transfer, or remain for full trial.
QUESTION # 2 - Why this court must not grant exemplary damages of $9,000,000 fr om
Karen Hanenberg/Arlington/ABC/CNN/Renae Steel for destruction they put in motion
actively contributed that my son and I face to date. Had she not tampered with us then,
we would not have been destr oyed nor our lives at stake today by ABC/CNN/Ariington
DHS’s RICO agents. She doesn't care for the public nor has any scant care for human life.
When I compared Mr. Fogg - my former employer, bad fifi filings in one same
jurisdiction - Richmond, all-employment-related [self admitted 10/15/19\, to 5 filings I had,

USSC Questions, Parties, Precedence, TOC, TOAto Petition - 2/16/21

Page i!

of**"" pages

it verified I was attacked with injunctive ruling, a weapon judge Cann and Samuel Towell
AG’s office who concealed themselves, nor serving me with petition, or any hearing',
applied to retaliate on 7/18/19. to insulate 7/10/19 claim to falsify court documents,
conceal misconduct by extortion to falsely malign me, filed against Ms. Hensley,
independent contractor in AG’s office, repiesenting Ms. Terrell & Ms. Wake deputy clerks
in Richmond district court to falsify court records, conspire in coordinated effort,
[admitted 9/4/19], to maliciously haim me as a desired outcome to tamper vidth me.
QUESTION # 3 - This petition questions the mental state of Mr. Towell/AG’s office,
without due process, or standing, this 7/18/19 injunctive order be quashed.
Next, in civil matters where statues and rules are violated and damages are
involved, public and related officers do not get lawyers from the Attorney General’s
office, known to historically misappropriate government funds in this manner.
QUESTION #4-This petition questions AG’s representation for Ms. Terrell & Ms. Wake
by Ms. Hensley, independent contractor’, must be removed because insurance does not
make provision for civil action for violation of statutes and rules involving damages.
It is clearly known that the government does not represent contractor’s, or else
would be representing landscapers, cleaners, plumbers, electricians, because
independent contractors are mandated to carry their own insurance.
QUESTION # 5 - This petition questions AG’s representation for Attorney Hensley an
independent contractor in AG's office by Ms. McNeill must be removed for a reason that
Ms. Hensley is mandated to carry her own insurance; thus waste of government money.

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page

hi 0f<fWI pages

The above seems to be happening under Samuel Towell’s direct, consent as head
of civil litigation misusing and exploiting the office of the Attorney General of Virginia.
QUESTION # 6 - Questions immediate removal and punish Samuel Towell, Deputy AG,
Civil Litigation, acting as a RICO proxy in gross misconduct of malicious prosecution,
pursuing me, fraud, waste abuse of government resources for personal interests, political
benefits to conceal misconduct by extorting me using legal means to abuse me, bring us
to question of "Inequality” in application oflaws by AG’s office-civil, this court punishes.
QUESTION # 7 - This petition questions why not AG’s civil litigation pay us exemplary
damages of $9,000,000.
AG’s office blows a hom of “public interest"and “human rights”, hi context. I was
referred by the local police. Every time, from Human Rights department, fraudulently,
Mr. Timothy L. Wilson, Admin/Ops Manager, appears before me as an alternate reality,
threatens me : “We don *t represent public; leave; I will call capitol police to arrest you. ”
When questioned ‘human lights department\ he responds, “It is for our people only. ”
QUESTION # 8 - This petition questions Mr. Wilson’s continued employment and the
necessity for punishment and immediate removal from AG's office.
QUESTION # 9 - Whether court’s rulings constituted an abuse of discretion requiring
reversal of all of the judgements below for reasons of constitutional deprivations of due
process, redress from government, equal application of law to violate rules of conduct
for conflict, jurisdictional authority, standing of petitioners, clandestine extrajudicial
comments to enter injunction, prejudicial dismissal orders prohibited in civil cases.

USSC Questions, Parties, Precedence, TOC, TOAto Petition - 2/16/21

Page Jl_ of**" pages

QUESTION # 10 - Whether review must happen only if a ruling on merits exists. Thereby
placing commands of notice below to set aside their personal policies, conduct
mandatory trial, refrain from injunctive rulings on behalf of silent/non-parties who don’t
receive motion/petition for injunctive relief hidden by deception violating VA Code
8.01-249(11 no publication to the effect, by Tort of Conversion illegally claiming
ownership of non-parties affecting their rights and privileges against their interests.
QUESTION # 11 - Whether it is proper to apply a defective and particularized iryunction
to insulate public and related officers who act personally by abrogating their oath.
QUESTION # 12 - Whether injunctions must be applied as exemption from culpability to
insulate public and related officers by extortion of grieving party resulting in appar ent
‘inequality'unequivocally repudiated by the constitution and guarded by this court.
QUESTION # 13 - Why Devanshi Patel is not incarcerated and removed permanently
from any job ol trust dealing with government and public, for threatening, mentally
torturing me to sign to give up and relinquish my son to CNN/Arlington DHS/Hillary
Clinton/Nancy Pelosi/Jason MeCandless in exchange for dropping Ar lington DHS case
who gave a release and closed on 5/13/11. Patel is now director Ar lington Bar.
QUESTION # 14 - Why Heather Stowe is not incarcerated and removed permanently from
any job involving government and public, for mentally torturing me : “We will never
return your son. ”. Stowe now is with the DC Aging Department.

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page

^ of**fl pages

QUESTION # 15 - Questions mental derangement of Sherri Brothers and why she is not
yet incarcerated and removed permanently from any job involving the government and
public for falsifying court document licking my private part.
QUESTION # 16 - Questions mental derangement of Deborah Olin and why she is not yet
incarcerated and removed permanently from any job involving the government and
public for falsifying court document because Deborah Olin did sodomy. Olin did not
show blood, nor hospital treatment.
QUESTION # 17 - Questions mental derangement of Jason McCandless and why he is not
yet incarcerated, removed permanently from any job involving the government and
public for malicious prosecution kidnapping, trafficking of my minor son, despite
Arlington DHS closed all cases on 5/13/11 as lawyer for CNN & RICO agents by fraud
concealing exculpatory evidence and falsifying and concealing multiple court documents
4/28/11. Battery upon me in 3/13 to physically kidnapped me to Arlington from Henrico
by falsifying failure to appear for a hearing when there was none, inciting Henrico police
custody violation when Ann Poates testimony provee none, and then when in Aldington
manipulating extortion of money from me for child support when there was none. But all
this didn’t matter- - tire idea was to drag me to Ar lington. Mentally tortured me and my
son by depriving any minimal human contact to tamper with us. Incited on 1/8/14 to
intercept and re-direct to Henrico police my gift and letter to my adult son. With no
standing or jurisdiction from Ar lington filed a false police report against me on 1/9/14 in
Henrico that I laid on Robin’s bed and Robin somehow licked my private parts.

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page

Vi

pages

QUESTION # 18 - Questions mental derangement of judge Esther Wiggins and why she is
not yet in prison acknowledging abuse stated in court’s recorded hearing :
“THIS IS COLD BLOOD. "Kidnapped and trafficked us, manhandled arid ill-treated
us, with malicious prosecution despite Arlington DHS closed the cases on 5/13/11. Failed
to conduct any trial and incarcerate Sanjay Altekar, Geeta Dubey, Sherri Brothers,
Maitha Stewart, Kamia McKenzie, Jason McCandless, Deborah Olin, Nader Hasan.
QUESTION # 19 - Questions mental condition of general assembly members to reappoint
Esther Wiggins in January 2011, despite serious evidence supporting lives destroyed by
the TRIO - Wiggins-McCandless-Olin.
QUESTION # 20 - What right does Hillary Clinton have to incite and encourage her CNN,
RICO, DHS agents that my son “needs a village to raise” who was a young adult 16 years
old when kidnapped by her DHS agents in a coordinated effort and refused to return.
Look what she did to my son - unemployable, terminated education, altered image,
psychological scars not accounted for, alienation from me, horrific emotional rape of any
minimal human contact among each of us., making false statements on behalf of my son.
QUESTION # 21 - In light, whether this court will restore our economic development by
reinstating all our rights, privileges, to include the purge of all derogatory records that
are FALSE since 2011, as a resulted by fraud PLANTED since 2011 to tamper, to include
unifications, to include voting rights, to include 2nd amendment rights, to include travel
rights snatched by fraud, to include economic development, to include to be secure in
our home, to include immigration citizenship for me.

USSC Questions, Parties, Precedence, TOC, TOAto Petition - 2/16/21

Page V'11 >!i

pages

PARTIES TO PROCEEDING & RELATED CASES
Rule 14.1(b) (i) & (Hi)
PROMILA RAJPUT,

PETITIONER
Veisus
RESPONDENTS

COMBINED SCV191508
1. TIFFANY TERRELL, Complaint - Circuit CL19-3415; GV19-9607Appendix A
i.

To The Circuit Court of City of Richmond, Virginia Appendix A
9+ million Virginia residents & businesses. CL19-3415,
Judgement entered on 8/23/19 amended on 9/3/19

ii.

To The General District Court of City of Richmond, Virginia Appendix C
In Re: Promila Rawut, no # assigned. Judgement entered 7/18/19

iii.

To The General District Court of Henrico, Virginia AppendixD
In Re: Promila Raiput no # assigned. Judgement entered 4/4/16

iv.

To The Circuit Court of Fredericksburg, Virginia In Appendix E
UMFS vPromila Rainnt - CU6-388; Judgement entered 7/20/15

v.

To The General District Court of Arlington, Virginia Appendix J?
Etalv. Promila Rainut.no # assigned; Judgement entered 2/6/12

2. SHARON WAKE, Complaint - Circuit # CL-19-3S06; GV19-0050 - Appendix A
COMBINED SCV 200081
3. RONALD IRVING FOGG, Appendix B
i. Warrant in Debt Appeal from general district court GV#19-012875,
[underlying matters not addressed in GV180404332],
to Richmond Circuit court # CL-19-2573
ii. Complaint - Richmond Circuit court CL-19-3172

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page Wh

of Win pages

DECLARATION FOR RELATED CASES
Rule 14.1(b)(1)

I reserve my right to make the next instalment payment and combine if any other
pending unrelated case emerges like RICO racket facing similar fate, because they ar e
lumped up illegally by Arlington’s judge Karen Hanenberg and Richmond’s judge Jenkins
under SCV191598.

Respectfully submitted on 16 February, 2021 by
Promila Rajput
Self-represented Petitioner
Cell: 804 968 9026
Add: 3404 S Street,, Richmond, VA 23223
up:
n

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page * *

pages

PRECEDENCE OFFERED
1.

Laws for extrajudicial written or spoken comments that are agreements prior or
after proceeding like judge Jenkins voice recorded, or illegitimately sealed in the
case file,because there are controversies surrounding such behavior, leaving
themselves liable to accusations of bias and having their decisions overturned,
that interfere in the performance of judicial duties, particularly when there is
room for improvement in the area of administration of justice as we see herein.

2-

Separate powers of tire judiciary from General Assembly members, Attorney
General’s office, Commonwealth’s Attorneys, police department, Comity
Attorneys, and other related officers, as we see herein telling tire judges how to do
their job - an outright insult of their sanity, an evidence of RICO racket for
political maneuvering, detrimental to any person.

3-

Term limits judicial district judges in general district courts and circuit courts, for
failing to set aside their personal policies.

4.

Prohibit general assembly to re-appoint judicial district judges, to further prevent
failure of judicial district judges to set aside their personal policies.

5-

Prohibit iniunctive rulings by statute, as they abridge substantive rights and
privileges by Tort of Conversion claiming ownership of unrepresented national
population against their interest and welfare, without first serving whose rights
are at stake under particularized petitioners’ personal interests and political
benefits. It is outright fraud, assault on nation's population as totalitarian regime

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page

of ^',l‘ pages

TABLE OF CONTENTS
Page #s
I.

PETITION FOR WRIT OF CERTIORARI ...

1

Opinions from conspiratorial rhetoric
applied to wilfully create false legal court
documents are not protected speeches ...

1

For such compelling reasons

2

★ Judgements below are illegal, obligating this court to
command below to transfer or quash with exemplary damages...

2

★ Restore our rights and privileges

2

OPINIONS

...

2

III.

JURISDICTION

4

IV.

STATUTORY PROVISIONS...

4

II.

1 BASIS TO HOLDING OFFERED - At bar 8/23/19 injunctive order
amended on 9/3/19 in SCV 19159S Rajput v Terrell........................

4

# 2 BASIS TO HOLDING OFFERED - At bar renewed 2/6/12 inhmctive
order from Arlington General District Court...................................
Congress’s attention is cited to judicial misconduct.

5
6

USSC’s decision Winter v. Natural Resources Defense Counci1
vacated injunction for failure of qualifications

6

Thornton v Commonwealth withheld material fact

7

Chilton-Belloni v. Angle all remedies not exhausted, abused discretion...

7

Supreme court of Virginia Rule l:6fa) must decide all matters on merits... 7

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

Page *L or**'5"' pages

Supreme court, of Virginia Rule 1:1 fb ) order filial if all causes addressed... 7

V.

Gamble v. United States, the case on the scope of double jeopardy

7

Courts have their traditional equitable discretion only bv law ...

8

A. Juiisdiction of lion Judge Jenkins, Richmond circuit court

8

B. Standing of Ms. Terrell, deputy clerk, and counsel Ms. Hensley ...

11

C. Judiciary not to settle hypothetical disagreements.........................

13

D. This court also sees factors around equal application of laws

14

STATEMENT OF THE CASES

15

Asserted errors consists

15

Appendix F Arlington GDC, Etalv. Promila Rajput

16

Appendix E Fredericksburg circuit, UMFS Piomila Rajput ...

17

Appendix D Henrico GDC, In Re: Promila Rajput

18

Appendix C Richmond GDC, In Re: Promila Rajput

19

Appendix B Richmond circuit, Rqjput v Fogg

19

Appendix A City of Richmond, Rqjput v Terrell & Wake...

21

REASONS FOR GRANTING THE WRIT ...

22

VII.

STANDARD ...

23

VIII.

CONCLUSION

24

VI.

DECLARATION

USSC Questions, Parties, Precedence, TOC, TOAto Petition - 2/16/21

24

Page

1 of Win \pages

INDEX OF APPENDICES
Rule 14.1(i)

Appendix A - City of Richmond COMBINED SCV 191598
Promila Rajput v fll Tiffany TeiTell: f21 Sharon Wake

21

Two GDC 6/5/19 disqualification order hon Judge Cann

... La. &2.a.

Two GDC 6/5/19 Clerk Blount deceived Hon Justice Lemons

... 3.a. &4.a.

Two SCV6/11/19 Hawed orders extracted deceiving Hon Justice Lemons... 5.a.& 6.a.
GDC 6/24/19 receipt $3 reiiew, copy concealed request, 6/5&11/19 orders...

7.a.

GDC 7/1/19 procedurally flawed letter to hon judges to fix designation

...

8. a.

CC 8/15/19 Recusal order of then chiefjudge Taylor - in Wake....................

9.a.

CC 8/20/19 Disqualification of hon judge Rupe - hi Wake.............................

lO.a.

CC 8/23/19 Injunctive Order in controversy ...

11.a. to 12. a.

CC Deletes disclosure Pt.6 Amends 8/23/19 Order 9/3/19 in controversy... 13.a.&14.a.
Two CC 9/4/19 orders dismissing with prejudice

15.a.

CC 9/25/19 recusal order ofjudge Jenkins

16.a.

Two CC 9/30/19 orders dismissing rehearing ...

17.a.

CC 10/15/19 disqualification order of all circuit courtjudges

18. a.

SCV 10/1/20 Order refusing appeal

19. a.

..................................

SCV 2/5/21 Order deny rehearing

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

20. a.

Page

pages

Appendix B - City of Richmond COMBINED SCV 200081
Promila Rajput v Ronald I Fogg
Two pages GDC 3/7/19 order

19
...

21.b. &21.1.b.

Five pages GDC 5/10/19 order ...

22.b. To25.b.

Two CC 8/7/19 orders continuing to 9/3/19

26. b.

Two CC 10/17/19 dismissal orders
Two CC 11/25/19 denying rehearing

27.b. &27.1.b.
...

28. b. & 28. l.b.

Two CC 12/9/19 orders to hie Fogg's matter proves injimction applied... 29.b. & 29.1. b.
SCV 10/5/20 order refusing appeal\ Rajput v Fogg. SCV200081
SCV 2/5/21 order denying rehearing; Rajput v Fogg. SCV200081

30. b.
...

31. b.

RENEWED UNDER SCV 191598 - Appendix A

Appendix C! - To General District Court City of Richmond Virginia

19

Two pages Judgement 7/18/19; In Re: Pi'omila Rajput: No number assigned ,..32.c. & 33.c.
Appendix D - To The General District Court of Henrico, Virginia

18

Judgement 4/4/16; In Re: Promila Ramut: No number assigned...

34. d.

Appendix E - To The Circuit Court of City of Fredericksburg, Virginia

17

Two pages Judgement 7/20/15; UMFS v Promila Ramut: CL-16-388

35. e. & 36. e.

Appendix F - To The General District Court of Arlington, Virginia

16

Seven pages Judgement 2/6/12; Et al it Promila Ramut: No # assigned...

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

37. f. to 43.1:

Page Y-'lV nr*"1'1 pages

TABLE OF AUTHORITIES
Pagefls
CASE TAWS
Caldwell v. Texas: "...no State can deprive particular persons or
classes ofpersons of equal and impartialjustice under the law...

14

Chilton-Belloni v. Angle Virginia Supreme Court ruled all remedies were not
exhausted thus was an error by abuse ofjudge's discretion....

7

Gamble v. United States:: for double jeopardy stare decisis is rejected

7

Thomton v. Commonwealth Virginia Supreme Court heldjudge abused
discretion in denying continuance after the party found out fact
concealed by Commonwealth

7

Winter v. Natural Resources Defense Council. Inc.. 129 S. Ct.. 365 (2008)
injunction vacated for failure to meet all four threshold factors

...

6

Stone tAlley, 240 Va. 162, 392 S.E.2d 486 (1990) it was an error for
circuit couit not to hear• evidence

9

STATUTES & RULES
CANONS
Canon l.A. biased egregiously abused his discretion and office ...

6,9,10

Canon 2.A. failing to apply law

6,8,9

Canons 3Cfbi failing to disqualify in Terrell's case

...6,9

USSC Questions, Parties, Precedence, TOC, TOAto Petition - 2/16/21

Page

of Xiini pages

CONSTITUTION
Article III courts adjudicate actual controversies
not act on hypothetical

... 8,13

1st Amendment restricts carte blanche doctrine to abuse ethics
and partisan abuse ofprocess, coordination; and those opinions
that are translated into writings in legal couit documents are
not protected speeches

... 13

1st Amendment protects speech and to petition to government
for redress ofgrievances...

...

1,4,5,8,11,12,16

14th Amendment protecting due process to all persons ... 4,5,7,8,11,12,16,19
UNITED STATES SUPREME COURT RULES
15.3 - Any 9+ million Virginia entities taking any position to or
for denial of this petition must tile a response with this court,
and copy to me, failing which mil not qualify for relief,
mandating this court to quash all rulings below

23

29 - Notice to the clerk of this court regarding fraudulently presented
and maliciously misused 9+ million Virginia entities by respective
petitioners ofinjunctive rulings

attached

39 - Petitioner is moceedins in part for $200 with in forma pauperis

USSC Questions, Parties, Precedence, TOC, TOAto Petition - 2/16/21

page XVI 0f

attached

pageS

UNITED STATES SUPREME COURT STATUTES
28 USC $1251 (b)(3) USSC's originaljurisdiction by virtue ofalien ... 1,2,4,8,15
28 USC §1253 USSC’sjurisdiction from 3justice panel of the last state court... 4
28 USC HI 746f2) Declaration

24

VIRGINIA SUPREME COURT RULES
1:1(1U requires to conclude all matters for the order to be a final order...

7

l:6fa) res judicata applies only IF a matter is decided on merits

7

7B:3 bars alternate parties

12

Professional Conduct Pail 6 § If2) prohibits to submit legal documents
affecting rights of others

.......................................

12

VIRGINIA STATUTE CODES
§2.2-3900 Human Rights Act

...

8J)l-4 carmot create rules to abridge secured rights and privileges

1,2,14,15,23
... 12,22

§8.01-40 Privacy violation

12

§8-01-249(1) deception mislead & concealing exculpatory evidence ... 1,6,14
§8.01-249(3) deceit to cause me to accept true jurisdiction to contrary.. 1,4,6,14
§16.1-69.40 district clerk duties; and civil liability

21

§17.1-105(B) no circuit judge had any authority to preside

8

§18.2-420 extrajudicial/clandestine activity depriving due process
§19.2-153 mandated by Virginia Supreme Court to designate judge

... 10,18
...

§54.1-3904 mandates law license

USSC Questions, Parties, Precedence, TOC, TOAto Petition - 2/16/21

8
11

Page AVit_ 0f/l/lli pages

OTHER
ARTICLE
The Federalist No. 78. 464 (C. Rossitered. 2003) (A. Hamilton)

12

DOCTRINES
Carte blanche - freedom to speak what you want to abuse the
ethics process involving dehberate and partisan abuse ofprocess...

13

Equal Justice Under Law - for power ofjudicial review, who have the
power to deny equal application oflaw by ignoiing rule of law ...

14

One person one vote consent, proof of service to each
9+ million Virginia residents and businesses to extract injunction...

24

Rule ot Law to eliminate 'inequality ’ everyone is bound to the
same laws for deeds done in body

4,5,8,11,15

Tort of Conversion claiming ownership of other people

... 1,2,13

JURISPRUDENCE
Mitclue’s Jurisprudence 1:1 ineffective orders are void ab initio

USSC Questions, Parties, Precedence, TOC, TOA to Petition - 2/16/21

.

5,21

Page XVJ»ot/t^pages

I.

PETITION FOR WRIT OF CERTIORARI

TO TRANSFER OR QUASH INJUNCTIVE RULINGS BELOW
Rules 14.1(c); 33.1(d); & 33.1(g)(i); and 39 in forma pauperis (in part)
UNDER authority and power of this honorable court as protector of fundamental
rights and privileges, otherwise it has no meaning, your undersigned petitioner, an
uninterrupted alien since 1995 in Virginia, and her son, a biological natural bom U.S.
Citizen, requests review of rulings by courts below for stripping us of family unit,
sovereignty, human dignity, education, livelihood, neace. be secure in our homes, normal
human development, and pursuit of happiness. Such secured rights and privileges cannot
be curtailed because they are constitutionally protected, unless in an emergency, that
there was none. For such reason constitution punishes the actors bv analyzing failnm of
seem ed due process mandatory in civil proceedings, a violation of Amendment 14. by
trickery interfere in Amendment 1 for redress with intent to silence us by hiding
exculpatory evidence, invalidate reporting, exploitation being unrepresented, and no
legal knowledge that these public and related officers would not apply if in our place:a- Deceitful ‘Conflict1, 'Exceeding. ‘Lack’. ‘Unconstitutional’ jurisdiction of judges
b- Deceptive ‘Lack’d standing of petitioners void of any one of four mandatory factors
to extract injunctive relief used as weapon of deflection to tamper with us.
Opinions from conspiratorial rhetoric applied to wilfully create false legal court
documents are not protected by 1st .Amendment speeches made with all efforts to claim
ownership over my son by Tort of Conversion, a constitutional fraud to invade mir home
by exceeding duty and abuse of discretion, requiring higher degree of discretion.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 1 of 24 pages

For such compelling reasons:★ Judgements below are illegal, obligating this court to command below fa') transfer
records for review of violation of natural justice; or thl nuash all rulings below, for
malicious prosecution cases ended by Arlington DHS 5/13/11, misusing 9+ million
entities by Toit of Conversion claiming their ownership by fraud of concealing
injunctive motion/petition from 9+ million entities, against their own welfare
affecting their secured rights, because it is particular ized for personal interest and
political benefits of injunctive petitioners; or (cl remand for full trial on merits.
★ Restore our secured rights and privileges to redress, due process equality in
application of law; to travel, sovereignty, economic development, be secure in our
homes, 2nd amendment, vote, pursuit of happiness, normal human development,
family nurturing, and immigration, purge crimes PLANTED by ABC/CNN's Soledad
O’Brian’s agents to seize our rights and privileges by trickery, making a HATE CRIME
due deep bias exploiting my alien status.
H.

OPINIONS

1. SCV191598 - Rainut v Terrell: & Wake - Richmond Circuit - Appendiv A
Two GDC 6/5/19 disqualification order hon Judge Caim

...............

... l.a. &2.a.

Two GDC 6/5/19 Clerk Blount deceived Hon Justice Lemons

... 3.a. £& 4.a

Two SCV 6/11/19 fiawed orders extracted deceiving Hon Justice Lemons... 5.a.& 6.a.
GDC 6/24/19 receipt $3 review, copy concealed request, 6/5&11/19 orders...

7.a.

GDC 7/1/19 procedurally Sawed letter to hon judges to fix designation

...

8. a

CC 8/15/19 Recusal order of then chiefjudge Taylor - in Wake......................

9.a.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 2 of 24 pages

CC 8/20/19 Disqualification ofhon judge Rupe - in Wake

lO.a.

CC 8/23/19 Injunctive Order in controversy ...

ll.a. to 12.a.

CC Deletes disclosure Pt. 5 Amends 8/23/19 Order 9/3/19 in controversy... 13.a.&14.a.
Two CC 9/4/19 orders dismissing with prejudice

15. a.

CC 9/25/19 recusal order ofjudge Jenkins

16a.

Two CC 9/30/19 orders dismissing rehearing ...

17.a.

CC 10/15/19 disqualification order of all circuit courtjudges

18. a.

SCV10/1/20 Order refusing appeal

19. a.

SCV 2/5/21 Order deny rehearing

20. a.

2. SCV 200081 - Rajput v Fogg - Richmond Circuit - Appendix B
Two pages GDC 3/7/19 order

.,.

21.b. &21.1.b.

Five pages GDC 5/10/19 order ...

22. b. To 26. b.

Two CC 8/7/19 orders continuing to 9/3/19

26. b.

Two CC 10/17/19 dismissal orders
Two CC 11/25/19 denying rehearing

27.b. &27.1.b.
...

28. b. & 28, l.b.

Two CC 12/9/19 orders to file Fogg's matter proves injunction applied... 29.b. & 29.1. b.
SCV 10/5/20 order refirsing appeal, Rajput v Fogg. SCV200081
SCV 2/5/21 order denying reh earing, Rajput v Fogg. SCV200081

30. b.
...

31. b.

3. No # assigned - In Re Promila Rairnit Richmond GDC Appendix C 7/18/19...32. c.,33.c.
4. No # assigned - In Re: Promila Rajput - Henrico GDC - Appendix D 4/4/16...

34. d.

5. CL-15-388-UMFS v P.Rajput Fredericksburg Circuit. Appendix E 7/20/15...35.e.,36.e.
6. No # assigned - Et al v, Promila Rajput. Arlington GDC. Appendix F 2/6/12.. .37. f. - 43. f.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 3 of 24 pages

m

JURISDICTION

On Oct 1 & 5, 2020 Supreme Court of Virginia refused reviews from circuit court’s
rulings, which renewed ruling's from Ar lington, Fredericksburg, Henrico, and GDC of
City of Richmond, denying both reheatings on Febivaiy 5, 2021.
Per clerk of this honorable court, petition is postmarked within 150 days.
This court has jurisdiction under 28 USC Sections -1251 tbVS'i original
jurisdiction for alien: and 1253 three justice panel of the last state couit
IV.

STATUTORY PROVISIONS

At bar 8/23/19 injunctive order, at bar amended on 9/3/19 in SCV191598 Rajput v Terrell.
to circuit couit of Richmond, for review ofEqual Application ofLaw, 1st & 14th Arndts
# 1 BASIS TO HOLDING OFFERED - Appendix A, pages l.a to 20.a.
On 8/15/19 then chief judge Taylor & judge Rupe on 8/20/19 recused themselves
from Wake’s case, but deceitfully did not from Terrell’s case, also their mandatory duty,
because both Wake & Terrell are deputy clerks., establishing judge Jenkins lacked
jurisdiction. Thus exceeded Iris authority with intent to injure my rights seemed by 1st
Amendment for redress.
These recusals came prior 8/23/19 injunctive order judge Jenkins entered violating
jurisdiction knew petitioners lacked standing because he deleted Pt 5 amended 9/3/19,
violating 14th Amendment deoriiins due process to favor people in same field mooting
all orders ab mitio ending controversy with inequality in rule of law.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 4 of 24 pages

AT BAR RENEWED 2/6/12 injunctive order Etalv. Promila. Rajput
To Arlington GDC to review gross fraud of conflict, inequality due bias in Equal
application oi Law; 1st Amendment and 14th Amendment; Sling fee extortion.
# 2 BASIS TO HOLDING OFFERED - Appendix F, pages 37.f. to 43. t
Judge Hanenberg 1 now substitute judge in District Courts in Virginia, Facilitator
Judge in Virginia Judicial Performance Evaluation Program, and Virginia Supreme
Court certified mediator manifests a history of corrupt behavior. In context, judge
Hanenberg concealed conflict from Fairfax presiding over my 1997 divorce
proceedings. In 2012 in Arlington presided by usurping authority of Supreme Court
designate judge because defendants ar e public officers, renders 2/0/12 injunctive order
void ab initio by Mitchie’s Jurisdiction 1:1 fraud orders, injuring my secured rights and
privileges for redress by 1st & 14th Arndts to due process. Even paid claims did not get
trial to favor people in same field corroding Equal Application of laws due to
mal-adaptive behaviors by violating Canons: 3Cfh) mandating disqualification; 2.A.
failing to apply laws; l.A. allowing prejudice to interfere and any scant care for me.

QUOTE : The professional relationship between Falls Church City Manager David R Lasso and his wife,
who is now an Arlington County district judge - Karen Hanenberg, is being investigated by a special
prosecutor after Commonwealth's Attorney Richar d E. Trodden concluded that there are "significant
questions” about a possible conflict of interest, served as a part-time instructor for the Northern Virginia
Criminal Justice Academy trains Northern Virginia police officers. Trodden also asked a county judge to
appoint an independent prosecutor to examine allegations that Falls Church police officers may have
defrauded the city by filing inaccurate time-cards about two years ago.: UNQUOTE

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 5 of 24 pages

Congress’s attention is cited to judicial constitutional misconduct bv violations
of:
■* YA. Code 8,01-249(1) deception to mislead me to their lack of jurisdiction, knowingly
hiding lack of standing of petitioners, and propagating political agenda.
YA Code 8.01-249(3) deceit to cause me to accept trae their jurisdiction to contrary.
Professional conduct to exploit us unrepresented, and escalate exploitation by
taking advance of my son with no legal knowledge.
Canons 3C(b) failing to disqualify from cases for lack of jurisdiction.
Canon 2.A. failing to apply Jaws of disqualification, refrain from deception, deceit,
exploiting us.
Canon l.A._eszrezious abuses of discretion and office by exceeding their duty, as a
1 esult maliciously harass me to date, interfering in natural justice tins court guar ds.
IIS. Supreme Court’s decision in Winter v. Na.tnralResnmr.es Defense Cnnnril
hic^ a party seeking a preliminary injunction must satisfy all four of the traditional tests;
thus injunction was vacated.
In context, no petitioner in any Arlington, Fredericksburg, Henrico, Richmond’s
district or cir cuit courts, satisfied any one of four mandatory factors, further grossly
failed in standing to affect secured rights and privileges of 9+ million Virginia entities,
nor did any judiciary met jurisdictional authority to addr ess the case before them, under
false pretense of 9+ million entities, denying us due process by concealing exculpatory
evidence, doctoring evidence, hijacking trial on merits to conceal egregious misconduct
of Sherri Brothers, Deborah Olin, Nader Hasan, Veronique Grice and Sheila Furey, Jason

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 6 of 24 pages

McCandless, Kamia McKenzie, Martha Stewart, malicious harassment prosecution;
egregious robbery of family and sovereignty by Arlington’s attorney Devanshi Patel [now
director of Bar Council]: “SIGN and give up your son to them in exchange for dropping
the case'’. Heather Stowe : “We will never return your son. ” Thus this court will quash, or
commands tr ansfer, or remand for full trial on merits, with exemplary damages.
In Thornton v Commonwealth withheld material fact In context district judges
below withheld material fact of their lack of jurisdiction, injunctive petitioners withheld
lack of standing, lawyers exculpatory evidence, manifesting constitutional misconduct.
In Chilton-Belloni v. Angle all remedies were not exhausted, thus abused
discretion was determined by tire Supreme Court of Virginia. But did not hold the same
for us - judge Hanenberg, judge Feeley, judge Wiggins, judge Hewitt, judge Chuckers,
judge McCleaney, judge cann, judge Carrico, judge Jenkins did not conclude matters and
exhaust all remedies. Thus verifies constitutional violation of 14th Arndt of process.
In.addition, supreme court of Virginia Rule 1:6fa) res judicata applies only IF a
matter is decided on merits. In context, in Mr. Fogg’s case Section 4 of my bill was not
addressed by judge McCleaney for conflict, lacked jurisdiction, failure to defer. Judge
Carrico lacked jurisdiction, thus failed objective trial in Terrell & Wake cases.
Furthermore' supreme court of Virginia Rule 1:1th1 also mandates : IFALL causes
are addressed then it is a final order. In context, not a single order is a final order from
Arlington to Richmond, as they relate to objectively addressing the merits.
In Gamble v. United States, the case on tire scone of double jeopardy, there,
Thomas rejects stare decisis for both, constitutional/statutory cases, so must this court.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 7 of 24 pages

In context.. Arlington conspired with UMFS conspired with Fredericksburg.
Arlington conspired with Henrico conspired with Richmond for unworthy injunctive
reliefs in controversy in a DERANGED SPREE to conceal egregious misconduct with
defective stare decisis originating in Ar lington by corrupt judge Hanenberg who put a
nail in our foreheads, lacking interpr etation of written laws, caused a domino ieonardv
up_on us, which were decided incorrectly by assault on the constitution of our seem ed
rights, protection to redress, and equal application of law, exploitation of your petitioner
for being alien, clearly manifests supporting RICO activity for CNN/ABC’s perversion.
Courts have traditional equitable discretion but just cannot do so by violating our
constitutionally seemed duties, obligations, rights and privileges by 1st Amendment to
redress from government, protected by 14th Amendment through due process, and by
protection of‘Equal Application of Laws’, less, raises ‘inequality] because of being alien.
In.con text this court analyzes constitutional validity of a) jurisdiction b) standing
c) entry of orders on hypotheticals, and d) failure of equal application of laws below;
A.

SCV191598 - Jurisdiction of hon judge Jenkins, Richmond circuit court
Appendix A, pages l.a-20.a

1.

At bar Hon Judse Jenkins \4olated Canon 3Cfbl mandarine disqualification: and
Canon 2.A. for failing to follow and apply the law of disqualification.
1.1. See lack ofjurisdiction established imder ‘it 1 Basis for holding offered’.
1.2. Pursuant to VA Code §17.1-105IB) judge Jenkins lacked designation because
the respondents are clerks of same jurisdiction; thus under such liability.

USSC Petition for Writ of Certiorari - Transfer or Quash mlings - 2/16/21

Page 8 of 24 pages

13. VA Code 19.2-153 mandated the Supreme Court to designate judge, thus did
not authorize judge Jenkins to enter orders, mooting all orders void ab initio.
2.

At bar Ms. Hensley and Ms. Terrell failed to produce a standing for which 8/23/19
order was amended 9/3/19, proving 8/23/19 order should not have been entered until
standing was established, verifying corrosion of rule of law, manifesting no justice.

3.

Legislators prohibit modification of 8/23/19 injunctive order without due process.

4.

In Stone v. Aliev it was an error for circuit court not to hear• evidence.
In context, atbar Judge Jenkins hastily entered injunctive order on 8/23/19, without
continuing to get evidence for standing from Ms. Terrell, Ms. Hensley, 9+ million
Virginia residents and businesses; thus usurped authority of designate judge.

5.

The above proves at bar judge Jenkins violated
5.1. Canon 3Cfb) of Virginia judiciary conduct by failing to disqualify for conflict
and allowed bias and prejudice to influence his decision.
5.2. Cation 2.A. by carrying out proceedings, hastily reaching a verdict without
admitting an important threshold factor of standing that had a different
outcome, and a fair trial, instead detoured my complaints and mandamus.
6.

At bar Judge Jenkins violated Canon LA. admitted indenendenre failure* He
announced judgment prior to opening the proceeding, voice recorded
extrajudicial comments on 8/23/19 : “IAM TOLD to enter order today: 1 will enterorder today” and that: “If you file anything I will put me in jail”, terrorizes and
threatens physical violence. Therefore, Judge Jenkins violated Canon 2. A. for

USSC Petition for Writ of Certiorari - Transfer or Quash nilings - 2/16/21

Page 9 of 24 pages

failure to apply law to refrain from violating VA Code IS.2-420 clandestinely
entered into agreement to enter 8/23/19 prefiling order, prior proceeding.
7.

At bar Judge Jenkins violated Canon l.A. due bias and reckless negligence, aid and
abet in fraud by Terrell and Hensley, knowing both lacked scope and authority to
submit 8/9/19 motion for injunctive relief on behalf of 9+ million people, reason to
amended order on 9/3/19, spinning me in frivolous defense verifying elder abuse.

8.

At bar Judge Jenkins violated Canon l.A. prohibiting bias by failing to uphold the
well being of the undersigned victim as a priority and abused his power by
tampering with me presenting as witness to court, causing great suffering & loss.

9.

At bar Judge Jenkins violated Canon 1,A. prohibiting bias manifesting competence
of his functions that judges do not operate in an impartial manner to the detriment
of a victim who is suffering the consequences of his actions and RICO racket. In
totality manifests violations of protection of equal application of laws by
egregious abuse of judicial qualification policy, a serious concern for Congress.

10-

Judge Jenkins on 8/23/19 voice recorded threatened me : “Tfvnn file anythine Twill
put, you in iail”. The evidence is seen in Appendix B. ns's 28.b. & 29.b. orders of
12/9/19 to file documents; in this manner legal documents wer e and ar e currently
not being filed in other matters by the clerk of circuit court in violation of records
laws in defiance of notice from supreme court, because of widespread application
of 9/3/19 [judge Jenkins] & 2/6/12 [judge Hanenberg] injunctive rulings.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 10 of 24 pages

11.

This supports the fraud of ‘Application for Leave’ an evidence of tampering with
me, by departing from normal due process with a different, treatment towards me
meant to be invalidated, an evidence of serious constitutional issue of “inequality”.

12.

Arlington UMFS & Henrico are in suit.

B. Standing of Ms. Terrell, deputy clerk of district court, and counsel Ms. Hensley
Next, this court will analyze the validity of the 8/9/19 motion submitted by Terrell
for injunction on behalf of 9+ million entities in Virginia to act against their own welfare
and interest, and filed by Ms. Hensley, corroding secured rights and privileges of these
very 9+ million Virginia entities constitutionally protected bv 1st Amendment for redress
of their grievances, and 14th Amendnient protecting due process rights, because such
defective case law is at a risk of being fraudulently applied to any of these 9+ minion
Virginia entities acting against their own welfare and interest - inst, like CNN/ARC,
Deborah Qlin. Robin Williams. KIF & UMFS made my son to act, against his own welfare
and interest. Thus constitutional assault on the court system by public and related
officers, a matter of serious concern for this court and congress to fix it with punishment
and fines and exemplary damages.
Arlington UMFS & Henrico are in suit.
1-

Terrell & Hensley did not serve their motion to 9+ million entities or allow thenresponse - see notice to the clerk of this court in this regard

2.

At bar Code $54.1-3904 mandates law license Terrell did not produce license to
represent 9+ million Virginia entities in her 8/9/19 motion for injunction.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 11 of 24 pages

3.

At bai■ vscrPart 6 $ If2) prohibits Terrell from submitting 8/9/19 pre-filing motion
affecting rights of 9+ million Virginia entities.

4.

At bar Terrell did not pav bond nor filing /he, nor filed an Application for Leave. to
submit her 8/9/19 motion with her law license and agreement from district court.

5.

At bar district’s deputy clerk Terrell and Hensley violate VA Code §8.01-40 The
Privacy Act by exploiting my son, to incite the courts illegally without certification
[mandated by law] using as exhibits to their 8/9/19 motion for injunction for their
own personal interest, political benefit.

6.

At bar deputy clerk Ten ell & Hensley violates vscr 7B:3 which bars alternate parties
in matters before court. Thus Terrell & Hensley are barred from using 9+ million
Virginia entities for their own personal and political benefits to favor RICO agents,
because it affects their [9+ million] secured rights, privileges, duties & obligations.

7.

In this manner, Terrell and Hensley violated secured duties, obligation, rights and
privileges by the 1st & 14th Amendment by misusing and exploiting us.
The above pattern shows how the petitioner's and judiciary violate VA Code 8.01 -4

by creating their own rules and laws as they go along, because there are no measures in
place for "abridging substantive rights and plivileses”.
Such actions are prohibited by this court acting as a guardian, “invalidating
orders” on the basis that: “no civil action be dismissed with prejudice for any rule
created. ” This court has a mandatory duty to quash all orders because they are civil
proceedings prohibiting ‘dismissal without trial, or ‘dismissal with prejudice’, because
civil proceedings are secured by the constitution of “Equal application of Law”.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 12 of 24 pages

c.

This court then analyzes that the Judiciary was not intended to settle hypothetical

disagreements. The Framers designed Article III courts to adjudicate actual
Controversies brought by plaintiffs who suffer real-world harm, as your petitioner and
her son present to this court. This reflects the Framers’ intent that the judiciary:
"May truly be said to have neither force nor will but merelyjudgment. ”
The Federalist No. 78, 464 (C. Rossiter ed. 2003) (A. Hamilton).
In context, the objections of the petitioners’ from Ar lington, Fredericksburg,
Henrico and Richmond, must be aimed towards themselves, not 0+ million Virginia
entities because this would be fraud by Tort of Conversion affecting their secured rights
and privileges, and primarily because hypothetical or future allegations that somehow
harm as a whole, even if they could prove so, does not support standing, thus
constitutionally wrong done to us with multi-jeopardy in its domino effect.
Thus this court considers :1.

1st Amendment restricts carte blanche doctrine to abuse ethics processes involving
deliberate and partisan abuse of process, and appar ent coordination manifesting as
RICO activity for the reason of involvement of ABC/CNN’s agents are street thugs.

2-

The courts below did not give serious consideration to the balance of equities and
public interest to the extent they rely upon the guidance from defendants’ egregious
misconduct involving sexual attacks for character assassination and public
humiliation on made up delusional narratives converted in legal court documents
by reducing into writing are not protected by 1st Amendment of speech for the
reason of such ‘conversion’and reduction into writing in legal court documents.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 13 of 24 pages

3-

No one has provided any persuasive justification to enter anv injunctive order for
the above natured grievances, but to conceal sexual misconduct of like people.

4.

Absent of totality, courts below appear a repudiation under Virginia law of 4th
circuit’s rule that failure to prove all four traditional factors is sufficient to requir e a
denial of a request for injunction before this court today.

•5.

My, my son’s, my family’s legal conditions cannot be put back the way they were.
This court thus restores by transfer or quashing rulings, with exemplary damages.

D.

Then this court will see the factors around equal application of laws.

!■

Doctrine of‘Equal Justice Under Law’ is applied to review misconduct. Not
embodied in the constitution, is a societal ideal, creating real life controversy
because it sets boundaries, calling for this court’s attention for failure of adequate
measures to punish culpability, even if they are public and related officers in our
direct contact inflicting intentional destruction by weaponizing court system by
flagrant abuse of false legal documents, deceit, and deception.

2-

In Caldwell xr. Texas. Chief Justice Melville Puller wrote :: The powers of the States
in dealing with crime within their■ borders are not limited, but no State can deprive
particular persons or classes ofpersons of equal and impartialjustice under the
law." Your petitioner calls for this essence. In context the application of injunctive
relief to punish to silence me does not fit your petitioner for the unspeakable
horrific abuses inflicted upon us, terminating education, our livelihood, socio,
psychological scars, loss of normal human development, sovereignty, as proof of
evidence thereof. Therefore, this court has to look into the merits, the ‘severity’ of

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 14 of 24 pages

false court documents that has destr oyed our lives in totality, and not the ‘number’
of actions filed emerging from RICO racket, which prove abuse of your petitioner,
her family by invalidating my reporting wrestling in profound harms, and reckless
ne§li§ence of those failing to prevent when responsible people were informed only
because it involves gang assault by McCandless, Brothers, Olin, Grice, Furey, Hasan.
3.

Doctrine of Rule of Law' - Suffrage is caused in the absence of the rule of law, as a
result of apparent ‘inequality’, implying that every person is subject to the law. If I or
my family were to do what they have done, courts would bring their army at my
door. Because of the inequality of being alien, there is different tr eatment.
The above statutory facts supported by evidence calls for justice.
V.

STATEMENT OF THE CASES

Asserted errors consists of flagrant abuse of the constitution
1. Affecting our secured rights and privileges to redress, due process, equality in
application of law, to tr avel, sovereignty, economic development, be secure in our
homes, 2nd amendment, vote, pursuit of happiness, normal human development,
family nurturing, and pushing out immigration by design since 12/30/2013.
2. Affecting secured rights of, depriving notice to, misusing 9+ million Virginia
entities, anyone could be a subject if this erroneous case law is placed.
3. Affecting integrity of the process and the process in of itself by
a. failing to meet threshold of legal standing to submit on behalf of 9+ million;
b. failing to meet thresholds of jurisdiction, in addition to conflict thereof;
c. absence to show any cause of action by any entity;

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 15 of 24 pages

d. failure to conduct mandatory evidentiary hearings to meet due diligence;
e. a civil action mandates a trial on merits.
f. civil action prohibits dismissal by prejudice as a constitutional error.
The wide majority in the spectrum of society seem to agree that the cases were
wrongly decided because of the ‘severity’ of culpability, lack of standing of petitioners,
and jurisdiction of judges.
Every person that came along thr ew their dirt on our- faces and it continues.
The wide majority in the spectrum of society thus, did not share the view that
these incorrect decisions are required by tire Supreme Court precedent, reasoning that
injunctive relief is particularized, could have allowed the Supreme Court of Vir ginia to
save meritorious ruling this -way to protect secured 1st & 14th Amendments’ rights.
Et al v. Promila Rzyput - Arlington GDC - no # assigned, Judgement 2/6/12 - Appendix F
Around 2008-2009, tins originated in Hartford, Connecticut; in 2010 got formulated
in Fairfax; in Dec 2010-2011 followed to Arlington where ABC/CNN PLANTED State
Department’s agent - (a) drug addict Matthew Douglas harassing by stealing internet
modem to deprive communication; (b) alcoholic drug addict Katherine Donnelley with
hostility, threats: Tou will be out of this bouse within 30 days. ’’Dec 2010.
Resulting in false court documents, continued malicious prosecution TO DATE by
MENTALLY DERANGED PHYSICALLY VIOLENT assist county attorney, prosecutor # 1
Jason McCandless, prosecutor # 2 Deborah Olin, prosecutor # 3 Nader Hasan, prosecutor
# 4 judge Esther Wiggins because they were caught, in failure to provide emergency

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 16 of 24 pages

Housing and meet 90-day mandatory law, despite cases closed on 5/13/11.
At bar, in 2012 judge Karen Hanenberg entered a fraud injunction. after presiding
over my divorce case from 1997 in Fairfax, then in jurisdictional violations because cases
involved public & related officers, e.g. Sanjay Altekar threatened to break my son’s legs.
Geeta Dubey, babysitter neglected my son by leaving him on the street in hot scorching
summer month from 3 pm to 5:30 pm waiting to be picked up without food or water.
Kidnapping & trafficking my son by their own written account: “We could not protect
her son; we don’t have a. place for him. ’’Why did they falsify documents? Why did they
fail to return when cases closed on 5/13/11. Why did they fail to return when it was
agreed to occur at 6/29/11 dispositional healing, because McCandless/ABC/CNN/Henrico
PD waited until after my son was 18, as Ohio Rep Jim Jordan puts it. For these reasons,
this court will quash 2/6/12 ruling or transfer or remand to Supreme court for full
objective trial on merits under their original jurisdiction. Appendix F
UMFS v Promila Rqjput CL16-388 Fredericksburg circuit Judgement 7/20/15 Appendix E
Judge Hewitt in Fredericksburg did not have authority over the TJMFS case
because they occurred in Arlington & Henrico, and my son was a 19 year old adult
Judge knew UMFS’s Greg Peters lacked jurisdiction and saw UMFS lacked standing and
maliciously pursued us from Henrico to Fredericksburg through their attorney Steven
Brown to trespass my residence, I was renting for a 3 month vacation. Judge also saw
the petition was never served to me because private server Kenneth Condrey never
drove from Chesterfield to Fredericksburg and was not in surveillance camera enteiing
the courthouse building, entrance door, scanner, or clerk’s office, instead Steven Brown

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 17 of 24 pages

was captured in the surveillance video of the courthouse submitting a forged made up
proof of sendee impersonating as private process server Condrey.
Knowing all this fraud by UMFS, judge still entered an injunctive oiling on
7/20/15 manifesting hate crime emerging from deep racial bias, by exploiting me
unrepresented and knowing I was leaving Fredericksburg by then.
Judge Hewitt’s actions place him under liability of corroding protection of Equal
Application of Laws, malicious prosecution by violating Canons 2. A. for failure to apply
law; and 1.A, exploitation of an unrepresented partyprohibited by professional code.
For such reasons this court will quash the 7/20/15 order, and grant exemplary
damages of $9,000,000 from UMFS.
In Re: Promila Rgjput no # assigned - Henrico GDC Judgement 4/4/16 - Appendix D
I don’t know the reason or the petitioner, whether it was the assistant county
attorney or AG's office who clandestinely violate VA Code 18.2-420 pursued and
extracted a fraud 4/4/16 order because it was concealed until renewed 8/9/19 by Ten-ell.
Arlington closed the cases again on 1/7/14 because my son turned 18 until which
time they withheld my son by fraudulently falsifying court documents. Henrico police
actively shielded ABC/CNN’s agents falsifying spinning narratives and destroying
evidence stating : “We know who they are but we will not do anything about it. ”
I was never served with any petition, justification, jurisdiction, standing, my
response, or a hearing, nor tire order, manifesting malicious prosecution barred by the

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 18 of 24 pages

constitution under 14th Amendment to be informed of charge; and protection of Equal
Application of Laws
For such reasons, this court will quash 4/4/16 order or transfer records, and
grant exemplary damages as this court deems proper.
In Re: Promila Rajput - Richmond GDC - no # assigned, Judgement 7/18/19 - Appendix C
One morning on 7/18/19 Richmond Sheriff’s Sgt Trotter suddenly trespassed upon
me and at my residence with the injunctive order terrorizing me and making me insecure
in my home. This is all I know about this ruling, on similar lines of Henrico GDC.
On 9/3/19 judge Cann in open court tells me AG’s office asked for 7/18/19
injunctive ruling, manifesting egregious abuse of discretion and office.
I was not seived with any petition, nor my response allowed, nor a hearing,
manifesting malicious prosecution barred by the constitution under 14th Amendment to
be informed of charge; and protection of Equal Application of Laws
For these reasons 7/18/19 order be quashed nunc pro tunc or transferred with
exemplary damages from the petitioner as this court deems proper.
Rajput v Fogg - Richmond circuit - SCV 200081 Judgement 2/5/21 - Appendix B
In 20171 started working for Mr. Fogg, where I was stalked and harassed by
ABC/CNN’s agents interfering in my employment, sent a russian stating: “I doift like
Indians. ”In this pattern my son and I are constantly harassed by Ar lington DHS agents.
This case originated with tortuous termination of employment as a result of city’s
finance inspector’s appearance, and racially charged verbal assaults by Mr. Fogg. Judge

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 19 of 24 pages

McCleaney presided in October 2018 over battery charge, she dismissed because of 2011
false cases from Arlington that I must not get justice. Mr. Fogg refused to pay my dues.
A Warrant in Debt was filed in Dec’18 in district count for -1099, 2 days’ pay,
overtime, $50 for each install to compensate $9 per hour wage, and professional services
for acquisition of real estate, and Section 4 for socio economic factors severance pay.
Judge McCleaney concealed her conflict and lack of jurisdiction over the matter
from me for three months with full intent to injure me. until the day of trial began in
court on 3/7/19 refusing to address Section 4, and required me to contact IRS for 1099 [calling me a fool to my face], dates for overtime, and bank statements for $50 install to
match the of money deposited in bank account by Mr. Fogg. This required continuation
that the judge failed and hastily shut the claim out in violation of statute requiring all
matters be addressed.
I followed for Section 4, with overtime dates, bank statements be addressed by a
different judge. The clerk gave a separate number to the claim that was a continuation of
unaddressed matters. Judge Cann applied res judicata, denying trial against statute, or
any scant car e for my loss of livelihood.
Terrell inserted herself and applied an illegal injunction from the window when I
went to appeal that you cannot file anything any more, in a conspiracy to deflect judge
McCleaney’s misconduct concealed by then chief judge Cann.
My research revealed Mr. Fogg had 68 filings but no injunction. I filed for an
injunction in district court that judge Cann stated he will look into it. Circuit court stated

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 20 of 24 pages

they don’t know if they are similar cases when in fact Mr. Fogg admitted they were all
employment related claims he filed.
From 5/10/19 circuit court withheld until after at bar9/3/19 injunction was placed.
This is seen in Appendix page 26.b. 8/7/19 order evidencing a RICO act by Mr. Fogg who
was asked to continue for Terrell’s injunction to be applied, thus dismissed on 10/17/19,
denying rehearing by trickery. Injunction applied is also in Appendix pases 29.h. & 29.1.b.
Supreme court did not find any reversible error. Now this court reviews
constitutional violations by the judiciary below. See Appendix B.
Rjyput v Terrell & Wake - Richmond - SCV191598, Judgement 2/5/21 - Appendix A
This relates to Terrell, deputy clerk in district court, from the window announcing
an injunctive order, exceeding her duty, and falsified court records in violation of her
duties under VA Code 16.1-69.40 & VA Codes 18.2-472. In combination at the window
besides Terrell is Wake s case also a deputy clerk who falsified court documents, verbally
humiliated me when I -went to appeal Fogg’s matter, insulted, personally attacked me to
alter tire events in the courtroom to tamper with me presenting as witness that I must
keep quiet when I was in my turn and Fogg cut me off assaulted me with false testimony
to judge Cann that I want to harm Fogg when he inflicted battery on me.
Judge Carrico failed to fix her flawed designation because hon Chief Justice
Lemons of Vir ginia Supreme Court was defrauded that the entire district court recused
when only one judge Cairn had, voids orders nunc pro time Mitchie’s Jimsnnidenee 1:1.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 21 of 24 pages

These matters were filed in circuit court as complaints for ill treatment in district.
Ms. Hensley attorney for, and Ms. Terrell filed at bar a motion for injunction on S/19/19
and renewed all the above injunctions from Arlington, Fredericksburg, Henrico, and
district court of Richmond. Circuit entered at bar injunctive ruling which proves that on
5/10/19 in district court there was no injunction permitting Terrell to block my appeal.
Supreme Court did not find any reversible error because injunction is a national
problem deferring to this court for review of flagrant abuses in district courts. See
Appendix A.

VI

REASONS FOR GRANTING THE WRIT

This court recognizes deep jurisprudential tension.
This court in conflict, with the decisions on important secured protections of
petition for redress, speech, equal application of law, and due process, has decided such
important federal questions, in a way that conflicts with a decision by courts below who
have so far departed in a manner that conflicts with the decision by another states
especially in terms of civil matters, trial is mandatory by law VA Code 8.01-4. jurisdiction
and standing, affecting rights of 9+ million entities at stake, in order to crush their*
substantial rights without being served with tire petition or publication, as to call for an
exercise of this court's supervisory power to be settled by this court by
* restoring our abridged rights and privileges, with exemplary da.ma.gPR;
★ either by transfer of records to this court:
★ or quash improper injunctive rulings:
★ or remand for trial on merits.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 22 of 24 pages

Supreme Court of Virginia and district courts below have decider! an important.
question of federal law of protections of equal application of laws, redress, and due
process that has not been, but should be settled by this court, so as not to be in conflict.
The above reasons are compelling
1. To submit a current petition for wilt of certiorari to restore our secured lights and
privileges to redress, due process, equality in application of law, to travel,
sovereignty, economic development, be secure in our homes, 2nd amendment, vote,
pursuit of happiness, normal human development, family nurturing, and immigration.
2. Sanction a departure by AG’s office, lawyers, district courts below7, so as to call for an
exercise of this court’s supervisory power; because 9+ million entities were not
notified whose rights are affected, nor have any interest in outcome of this petition.
3. Respondents Ronald Fogg & 9+ million entities filed no document, prohibiting
injunctive relief by USSCRule 15.3 mandating this court to quash all rulings below.
VII.

STANDARD

One person one vote doctrine dictates one petitioner cannot extract injunctive
relief misusing the entire population - a fr aud prohibiting legal representation without,
information or consent. How can one human body have 9+ million heads on their neck??
It's mental derangement, necessary to eliminate injunctions.
Rap sheets have no injunctions for varied misconduct on different occasions,
necessitating equality in application of law because no one must be placed above law
because actions of public & related officers emerge from a very high degree of discretion.

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 23 of 24 pages

VIII.

CONCLUSION

Respondents failed to establish cause of action, nor could explain how 9+ million
entities have been affected by me or my particularized’ claims. Judiciary amplifies
lawyers’ claims defending their clients, is an illegitimate way for respondents to excuse
then- own behavior. The Constitution punishes the actors. Lawyers ar e consumed by the
desire to alter us as monsters for letting criminality of the actors and perpetrators off the
hook, by influencing the judiciary if they shift blame upon us. evidence of (a) tampering
us; (b) need for separ ation of powers. Each be held responsible to the full extent of law.
not ‘devil did it’ as an excuse. In a rush to condemn us, judges Feeley, Wiggins, Heweitt,
Hanenberg, Chuckers, McCleaney, Cann, Jenkins & Taylor, took fundamental right from
us, undermined legitimacy of process, robbed us of each of us, public of objective
comprehensive trial on merits, by systematically using their judicial power to silence us.
I ask ABC/CNN/Arlington DHS/Renae Steels’ agents to free my son and unify us
than divide by constant har assment and abuse to gain more time to permanently divide.
In totality, the foregoing compelling reasons necessitates this court to review the
fourth circuit’s judgments for decisions made on lack of trial on merits in district courts,
then quash all rulings below, or remand for trial on merits, or transfer records.
DECLARATION
28 US. C, Section 1746(2) - Rule 29.5(c)
I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted on Febmary 16, 2021 by
Promila Rajput, Self-represented Petitioner
Cell: 804 968 9026
Add: 3404 S Street, Richmond, VA 23223
Email: promila.ramut. 11 @smail.com

USSC Petition for Writ of Certiorari - Transfer or Quash rulings - 2/16/21

Page 24 of 24 pages

